                                                                             Report No. DODIG-2014-077




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              M AY 3 0 , 2 0 1 4




                     Hotline Complaint Regarding the
                     Settlement of the Pratt & Whitney
                     Commercial Engine Cost Accounting
                     Standards Case




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste, & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Hotline Complaint Regarding the Settlement of the
                                Pratt & Whitney Commercial Engine Cost Accounting
                                Standards Case

May 30, 2014                                       Recommendations
Objective                                          We recommend that the Director, DCMA:

We conducted an oversight review to determine         •	 Implement a policy requiring that management determine
the validity of a DoD Hotline complaint alleging         that the attorney’s litigative position includes sufficient
that (i) management exerted pressure to settle           information and data to justify a settlement negotiated in
a case in litigation for an amount agreeable to          accordance with the FAR;
the contractor rather than fair to the taxpayer
                                                      •	 Evaluate the feasibility of requiring that ‘material
and (ii) the settlement amount was about
                                                         disagreements’ between a contracting officer and a trial
$500  million less than an amount consistent
                                                         attorney regarding the decision to seek a negotiated
with Government procurement regulations.
                                                         settlement with the contractor be elevated to a board
                                                         of review;
Findings
                                                      •	 Implement best practices wherein general counsel conflict
We found no evidence to substantiate the
                                                         of interest and impartiality reviews are documented in
allegation that there was pressure from the
                                                         writing real-time; and
highest levels of the Defense Contract Audit
Agency (DCAA) and the Defense Contract                •	 Take actions to ensure Pratt complies with the CAS when
Management Agency (DCMA) to settle the                   accounting for the actual cost of aircraft engine parts
litigation for an amount that was agreeable              and ensure the U.S. Government recovers any resulting
to UTC Pratt & Whitney rather than an amount             increased costs paid to Pratt since 2005.
that was fair to the taxpayer. We substantiated
that DCMA did not establish a settlement           We recommend that the Director, DCAA, perform an internal
position that was consistent with the Federal      review to assess auditor adherence with the requirements of
Acquisition Regulation (FAR). Therefore, we        DCAA Contract Audit Manual 15-506.2, “Support Government Trial
are not able to provide a reliable estimate        Attorney” and take necessary corrective action, where warranted.
for a settlement amount. We also found that
DCAA assistance negatively impacted the            Management Comments and
settlement amount; DCMA legal counsel was
unable to influence the decision to settle;
                                                   Our Response
and DCMA did not vet one negotiator with a         The Director, DCMA, comments were responsive to the
potential conflict of interest. Additionally, we   recommendations and identified actions that met the intent of
determined that current problems with the          our recommendations.
DCMA administration of Pratt’s continuing
                                                   The Director, DCAA, did not agree that DCAA negatively
Cost Accounting Standards (CAS) 418
                                                   impacted negotiations and as a result will not implement our
noncompliance may be resulting in increased
                                                   recommendation. The Director did not provide new evidence
costs on DoD contracts; therefore, we issued
                                                   for us to consider or factual support for certain key assertions
a Notice of Concern to the Director, DCMA, on
                                                   from their response. Therefore, we request that the Director
April 17, 2013.
                                                   reconsider the DCAA position or provide additional evidence
                                                   and/or comments to substantiate the DCAA position. Please see
Visit us at www.dodig.mil                          the recommendations table on the following page.
                                                                       DODIG-2014 -077 (Project No. D2010-DIP0AI-0023.000) │ i
                   Recommendations Table
                                                                                      Recommendations               No Additional
                                            Management                                Requiring Comment           Comments Required
                    Director, Defense Contract Management Agency                                                  B, D, E, F1

                    Director, Defense Contract Audit Agency                          C

                   Please provide comments by June 30, 2014.1




                   	1	
                         On May 24, 2013, DCMA concurred with each of our recommendations from our April 17, 2013, Notice of Concern.
                         DCMA will provide the DoD Office of Inspector General with semiannual updates until each recommendation has been
                         successfully implemented (Appendix E).




ii │ DODIG-2014-077 (Project No. D2010-DIP0AI-0023.000)
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                                 May 30, 2014

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
		             DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Hotline Complaint Regarding the Settlement of the Pratt & Whitney
	        Commercial Engine Cost Accounting Standards Case
	        (Report No. DODIG-2014-077)

We are providing this draft report for review and comment. We partially substantiated one of
two allegations made by the complainant and have made recommendations that we believe,
if implemented, will protect the Department from similar short-comings in the future.

We considered comments from the Defense Contract Management Agency and Defense
Contract Audit Agency when preparing the final report. DoD Directive 7650.3 requires
that recommendations be resolved promptly. The comments from the Director, Defense
Contract Audit Agency, were not responsive. Therefore, we request additional comments on
Recommendation C by June 30, 2014.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to apo@dodig.mil. Copies of your comments must have the
actual signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified
comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877).



                                                   Randolph R. Stone
                                                   Deputy Inspector General
                                                     Policy and Oversight




                                                                                          DODIG-2014-077 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background ______________________________________________________________________________________2

                  Finding A. Alleged Pressure to Settle in Favor of
                  Pratt at the Expense of the Taxpayer___________________________________4
                  Allegation_________________________________________________________________________________________4
                  Our Review_______________________________________________________________________________________4

                  Finding B. DCMA Settlement Not Consistent with
                  Government Procurement Regulations, including
                  the Cost Accounting Standards_____________________________________________7
                  Allegation_________________________________________________________________________________________7
                  Our Review_______________________________________________________________________________________7
                  Recommendation, Management Comments, and Our Response___________________________ 10

                  Finding C. DCAA Assistance Negatively Impacted
                  the Settlement Amount_______________________________________________________ 12
                  Recommendation, Management Comments, and Our Response___________________________ 16

                  Finding D. DCMA Legal Counsel Unable to
                  Influence Decision to Settle_________________________________________________ 18
                  Recommendation, Management Comments, and Our Response___________________________ 20

                  Finding E. DCMA Did Not Vet One of
                  Two Settlement Negotiators_______________________________________________ 21
                  Recommendation, Management Comments, and Our Response___________________________ 22

                  Finding F. DCMA Taking Action to Correct Continuing
                  Cost Accounting Standards Noncompliance____________________ 23
                  Recommendation, Management Comments, and Our Response___________________________ 24




iv │ DODIG-2014-077
Contents (cont’d)
Appendixes
Appendix A. Scope and Methodology________________________________________________________ 25
    Use of Computer-Processed Data_ _______________________________________________________ 25
    Prior Coverage_____________________________________________________________________________ 25
Appendix B. Chronology of Events___________________________________________________________ 27
Appendix C. Chronology of Significant Amounts____________________________________________ 30
Appendix D. Notice of Concern_______________________________________________________________ 32
Appendix E. DCMA Comments on the Notice of Concern___________________________________ 39

Management Comments
Defense Contract Management Agency Comments_ ________________________________________ 43
Defense Contract Audit Agency Comments__________________________________________________ 47

Acronyms and Abbreviations______________________________________________ 50




                                                                                                     DODIG-2014-077 │ v
                                                                                            Introduction




Introduction
Objective
Our objective was to assess a complaint submitted to the Defense Hotline
(Case No. 109704) regarding a June 5, 2006, settlement agreement between the
U.S. Government and the United Technologies Corporation, Pratt & Whitney (Pratt).
The complainant alleged:

         •	 There was pressure from the highest levels of the Defense Contract Audit
           Agency (DCAA) and Defense Contract Management Agency (DCMA) to settle
           this litigation for an amount that-was agreeable to the contractor rather than
           an amount that was fair to the taxpayer.

         •	 The litigation of Pratt’s cost accounting for engine parts on commercial
           engine collaboration programs from 1984 through 2004 was settled for
           an amount about $500 million less than an amount consistent with
           Government procurement regulations, including the Cost Accounting
           Standards (CAS).

The complaint did not make allegations against specific parties, nor did it accuse
specific parties of violating criminal or administrative offenses. Consequently, these
allegations did not warrant an investigation of a suspect or subject, in accordance
with the Council of the Inspectors General on Integrity and Efficiency (CIGIE), Quality
Standards for Investigations.

However, given the significance of the government allegedly foregoing $500 million
in an out of court settlement, we determined it appropriate to assess the processes,
procedures and policies used to formulate the settlement between DCMA and Pratt.

Our assessment was conducted in accordance with CIGIE, Quality Standards for
Inspection and Evaluation (QSIE). Throughout our assessment we remained alert for
indicators of fraud, other illegal acts, or abuse as required by the QSIE. We found no
indicators requiring referral to an appropriate investigative body.

See Appendix A for details on our scope and methodology.




                                                                                        DODIG-2014-077 │ 1
Introduction



                 Background
                 In 1991, DCAA issued Audit Report Nos. 2641-91L44200001 and 2641-91D44200804
                 finding that Pratt had not complied with the following CAS when accounting for
                 the cost of material obtained through the use of collaboration agreements:

                               •	 CAS 410 Allocation of Business Unit General and Administrative Expenses
                                   to Final Cost Objectives,

                               •	 CAS 418 Allocation of Direct and Indirect Costs, and

                               •	 CAS 420 Accounting for Independent Research and Development Costs
                                   and Bid and Proposal Costs

                 DCAA found the noncompliances in a DCAA audit of a FY 1984 incurred cost
                 submission for Pratt. DCAA found that Pratt had not included any costs associated
                 with its collaboration agreements with foreign parts suppliers in the allocation bases it
                 used to allocate indirect costs, general and administrative expenses, and the cost
                 of independent research and development costs and bid and proposal costs to its
                 U.S. Government contracts. The collaboration agreements provided that, in exchange
                 for the parts the suppliers supply, Pratt would pay them a percentage of revenue
                 received by Pratt from the sale of the respective jet engine (referred to as “revenue
                 share”). The revenue share reflected the percentage of parts supplied to the program.
                 Pratt had argued that title for the parts never passed from the supplier to Pratt
                 under the collaboration agreements and therefore Pratt did not have any costs to
                 include in the same allocation bases.

                 On December 2, 1996, DCMA determined that Pratt had not complied with the cited
                 CAS and issued a demand for payment to Pratt in the amount of $260 million. The
                 demand was to recover the estimated increased costs paid by the U.S. Government
                 to Pratt from 1984 through 1995. Pratt appealed the decision to the Armed Services
                 Board of Contract Appeals (ASBCA), which decided in favor of Pratt on July 30, 2001.
                 The U.S. Government appealed the decision to the U.S. Court of Appeals for the Federal
                 Circuit (Court) and on January 15, 2003, the Court vacated the ASBCA decision.2 The
                 Court ruled that the terms cost and material cost as used in the CAS include the
                 revenue share payments made by Pratt for the parts under the collaboration
                 agreements. As such, Pratt was required to include a cost for collaboration parts in its


                 	2	
                        Donald H. Rumsfeld, Secretary of Defense v. United Technologies Corporation, Pratt & Whitney, 315 F.3d 1361, 1377;
                       2003 U.S. App. LEXIS 569; 49 U.C.C. Rep. Serv. 2d (Callaghan) 492; 60 Fed. R. Evid. Serv. (Callaghan) 827 (U.S.C.A. Fed. Cir.,
                       January 15, 2003)




2 │ DODIG-2014-077
                                                                                               Introduction



allocation bases. The Court remanded the case to the ASBCA to include a determination
of damages.      Of particular significance, the Court provided in Footnote 19 of the
decision that:

           To the extent that Pratt may argue that some portion of the revenue
           shares represented payments for items other than parts, Pratt may
           provide that evidence on remand. The burden is upon Pratt, however,
           to show that the revenue share payments included payments beyond
           that for the collaboration parts.


After the Court decision, the DCMA trial attorney prepared for renewed litigation
in front of the ASBCA while attempting to reach an out-of-court settlement.            On
November  24, 2003, DCMA issued an updated demand to Pratt in the amount of
$754.7  million to recover the estimated increased costs paid by the U.S. Government
to Pratt from 1984 through 2002.

On June 5, 2006, the DCMA contract management office settled the damages
associated with Pratt’s failure to comply with Cost Accounting Standards 410, 418, and
420 from 1984 through 2004 for $283 million. Also on June 5, 2006, the DCMA contract
management office (CMO) approved for use by Pratt, a noncompliant cost accounting
practice, to account for the cost of parts acquired through its collaboration agreements.

See Appendix B for a chronology of events that transpired from 1991 through 2006.

See Appendix C for a chronology of significant amounts that were demanded, proposed,
and/or offered from 1996 through 2006.




                                                                                            DODIG-2014-077 │ 3
Finding A




                 Finding A
                 Alleged Pressure to Settle in Favor of Pratt at the
                 Expense of the Taxpayer
                 We found no evidence to support the allegation.



                 Allegation
                 The complainant alleged that there was pressure from the highest levels of the DCAA
                 and DCMA to settle this litigation for an amount that was agreeable to the contractor
                 rather than an amount that was fair to the taxpayer.


                 Our Review
                 We did not substantiate the allegation. To determine the validity of the allegation we
                 performed procedures including:

                         •	 obtained and analyzed DCAA and DCMA legal, negotiation, and settlement
                            files and documentation;

                         •	 obtained and analyzed relevant e-mail communications relating to negotiation
                            and settlement;

                         •	 reviewed applicable laws, regulations, DoD Instructions, DCMA instructions,
                            and DCAA policies; and

                         •	 conducted interviews with DCMA and DCAA personnel including
                            members of management who had influence or participated in the
                            negotiation and settlement, including former Directors of both agencies (see
                            the following table).




4 │ DODIG-2014-077
                                                                                                              Finding A



                                 Title of Person Interviewed and Positions Held
       Agency                        Between Nov. 24, 2003 and June 5, 2006                   Status*
 Defense Contract     Director                                                               Former
 Management
 Agency               Acting Director                                                        Former
                      Deputy Director
                      Director East
                      Acting General Counsel                                                 Former
                      Deputy General Counsel
                      Director East (Aeronautical Systems Division)                          Former
                      Executive Director Contract Operations
                      Counsel East                                                           Former
                      Counsel Hartford                                                       Former
                      Chief Trial Attorney (Director), Contract Disputes Resolution          Current
                      Center
                      Chief Trial Attorney, Contract Disputes Resolution Center              Former
                      Senior Trial Attorney, Contract Disputes Resolution Center             Current
                      Commander, Aircraft Propulsion Operations                              Former
                      Commander, Aircraft Propulsion Operations Pratt & Whitney              Former
                      Group Chief, Business Operations, Aircraft Propulsion Operations
                      Pratt & Whitney
                      Commander, Aircraft Propulsion Operations Pratt & Whitney              Former
                      Divisional Administrative Contracting Officer,                         Former
                      Pratt & Whitney
                      Corporate Administrative Contracting Officer, United Technologies      Former
                      Corporation
 Defense Contract     Director                                                               Former
 Audit Agency
                      Regional Director, Northeastern Region                                 Former
                      Special Programs Manager, Northeastern Region                          Former
                      Resident Auditor, United Technologies Corporation Resident             Former
                      Office
                      Supervisory Auditor, United Technologies Corporation Resident          Former
                      Office
                      Auditor, United Technologies Corporation Resident Office               Former
                      Government Expert Witness on Cost Accounting Standards before          Former
                      the ASBCA

* There has been personnel turnover in the job positions identified in this chart and report. For
positions identified with a status of “Current” the individual interviewed held the same job position
at the time of the interview as during the relevant time period of, November 24, 2003 through
June 5, 2006. Where the individual interviewed no longer held the position due to turnover,
retirement, etc., the status is identified as “Former.”




                                                                                                        DODIG-2014-077 │ 5
Finding A



                 Based on the performance of these procedures we concluded that:

                               •	 actions3 taken by the former Director, DCMA to explore the feasibility of
                                   an administrative settlement with Pratt in lieu of continued litigation did
                                   not constitute pressure to settle for an amount that was agreeable to Pratt
                                   rather than an amount that was fair to the taxpayer,

                               •	 actions taken by the former Regional Director, Northeastern Region, DCAA
                                   to advocate for a particular settlement amount did not equate to pressure
                                   to settle for an amount that was agreeable to Pratt rather than an amount
                                   that was fair to the taxpayer,

                               •	 actions taken by the former Director East, DCMA4, to reach a negotiated
                                   settlement based in part upon advice from DCAA was not improper pressure
                                   to settle for an amount that was agreeable to Pratt rather than an amount
                                   that was fair to the taxpayer, and

                               •	 action by the Commander, Aircraft Propulsion Operations Pratt & Whitney,
                                   DCMA to approve a DCMA pre-negotiation settlement position that was
                                   not supported with sufficient documentation did not equate to pressure to
                                   settle for an amount that was agreeable to Pratt rather than an amount
                                   that was fair to the taxpayer.

                 These actions did not equate to pressure from the highest levels to settle for an
                 amount that was agreeable to the contractor rather than an amount that was fair to
                 the taxpayer, as alleged by the Hotline complainant.




                 	3	
                       See Appendix B, Chronology of Events.
                 	4	
                       The Director, DCMA East, was promoted to Deputy Director, DCMA, on September 26, 2005, and was promoted to Acting
                       Director, DCMA, on January 12, 2006. He held this position until his retirement from Government service on April 30, 2008.




6 │ DODIG-2014-077
                                                                                                  Finding B




Finding B
DCMA Settlement Not Consistent with Government
Procurement Regulations, including the Cost
Accounting Standards
The DCMA contract management office (CMO) failed to protect the Government’s
interest when determining a reasonable basis for the $283 million settlement amount.
DCMA’s settlement position was derived without obtaining sufficient documentation
from Pratt to substantiate the negotiation objective under the principles articulated
in the Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS) or the
intent of Footnote 19 from the decision of U.S. Court of Appeals for the Federal Circuit.



Allegation
The complainant alleged that the litigation of Pratt’s cost accounting for engine parts
on commercial engine collaboration programs from 1984 through 2004 was settled
for an amount about $500 million less than an amount consistent with Government
procurement regulations, including the CAS.


Our Review
We partially substantiated the allegation. DCMA’s settlement position was derived
without obtaining sufficient documentation from Pratt to substantiate the Divisional
Administrative Contracting Officer’s (DACO) prenegotiation settlement position
consistent with FAR Part 31 “Contract Cost Principles and Procedures,” the rules and
regulations established by the Cost Accounting Standards Board, and the intent of the
Court as stated in Footnote 19 from the decision of U.S. Court of Appeals for the Federal
Circuit. Because DCMA did not substantiate their position, we are not able to provide
a reliable estimate of what the settlement amount would have been had DCMA
complied with the regulations.

The DACO, with the approval of DCMA management, settled the case on June 5, 2006,
for $283 million. This amount was $133.9 million less than the litigative recovery of
$416.9 million anticipated by the DCMA Senior Trial Attorney in his litigative risk
assessment and almost $471.7 million less than the $754.7 million demand for
payment that DCMA had made to Pratt on November 24, 2003.




                                                                                            DODIG-2014-077│ 7
Finding B



                 DCMA justified the reasonableness of its $283 million settlement amount by citing
                 the following factors:

                                •	 settlement expectations from management,

                                •	 future litigative costs,

                                •	 the litigative risk of returning the case to the Armed Services Board of
                                    Contract Appeals where they had previously lost the case, and

                                •	 conclusion of audit and legal effort on a case that had already spanned
                                    20 years.

                 The DACO’s undated prenegotiation memorandum was approved by the DCMA Group
                 Chief, Operations Division (Finding E) and the Commander, DCMA Aircraft Propulsion
                 Operations, Pratt. The negotiation approval authority granted to the DACO included
                 a negotiation target of $324.5 million and a maximum5 negotiation position of
                 $269.5 million.               The approved DCMA prenegotiation position was flawed for the
                 following reasons.

                                •	 Pratt had more than $12.2 billion in total revenue share payments for
                                    collaboration parts that was never audited (Finding C).

                                •	 The DACO actions were not consistent with the intent of Footnote 19
                                    from the decision of U.S. Court of Appeals for the Federal Circuit. The
                                    DACO did not require that Pratt demonstrate with evidence it’s assertion
                                    that $7.1  billion in revenue share payments included payments beyond
                                    that for the cost of the collaboration parts. Footnote 19 of the decision
                                    states: “To the extent that Pratt may argue that some portion of the
                                    revenue shares represented payments for items other than parts, Pratt
                                    may provide that evidence on remand.                                   The burden is upon Pratt,
                                    however, to show that the revenue share payments included payments
                                    beyond that for the collaboration parts.”6 (Finding C).

                                •	 The DACO did not demonstrate the regulatory authority in the FAR and
                                    the CAS to justify her acceptance of $4.1 billion in revenue share payments
                                    as payments for items other than parts.


                 	 5	
                         The former DACO used the term “maximum” on the prenegotiation memorandum to describe the lowest amount
                        acceptable as settlement with Pratt.
                 	 6	
                         Donald H. Rumsfeld, Secretary of Defense v. United Technologies Corporation, Pratt & Whitney, 315 F.3d 1361, 1377;
                        2003 U.S. App. LEXIS 569; 49 U.C.C. Rep. Serv. 2d (Callaghan) 492; 60 Fed. R. Evid. Serv. (Callaghan) 827 (U.S.C.A. Fed. Cir.,
                        January 15, 2003)




8 │ DODIG-2014-077
                                                                                                Finding B



        •	 The DACO did not use compound interest in accordance with the rules and
           regulations established by the Cost Accounting Standards Board and found
           at 48 CFR 9903.201-4.

DCMA’s settlement position was derived without obtaining sufficient documentation
from Pratt to substantiate the DACO’s prenegotiation settlement position consistent
with FAR Part 31 “Contract Cost Principles and Procedures,” the rules and
regulations established by the Cost Accounting Standards Board, and the intent of
the Court as stated in Footnote 19 from the decision of U.S. Court of Appeals for the
Federal Circuit.   It was the trial attorney’s litigation position that all the revenue
share payments should be deemed the cost of collaboration parts unless shown to
be otherwise by Pratt. The decision by DCMA management to reach a negotiated
settlement instead of pursuing a court decision on the amount of damages owed by
Pratt to the U.S. Government left the DACO and her team with data insufficient to
support a negotiated settlement position that was consistent with FAR and CAS.

Subsequent to the events described above, DCMA Instruction 134, “Boards of Review,”
was established.    The instruction provides policies and assigns responsibility for
ensuring that in specified circumstances, the decision processes of the contracting
officer are reviewed by a Board of Review chaired by the Executive Director, Contracts;
Directorate Contracts Director; Center Director; or a designee. The review process
can identify potential discrepancies with FAR and CAS; however, as established it
provides a control check that takes place at the end of the prenegotiation
determination process. It does not include a control procedure to ensure that the
contracting officer has evaluated the information and data available from the trial
attorney to determine that it is sufficient to support a settlement position that is
consistent with FAR and CAS. Performing this type of analysis prior to making a
decision to pursue a negotiated settlement with the contractor has the potential to
save DoD resources and ensure any future settlement amounts are consistent with the
procurement regulations.

We believe that had the instruction been in place at the time the Board would have
disagreed with the basis of the DACO’s prenegotiation settlement position. However,
the instruction would not have ensured that the DACO and her team had data sufficient
to support a negotiated settlement position that was consistent with FAR and CAS. A
new policy should be implemented that requires that a management official oversee
an evaluation determining the extent to which data obtained from the trial attorney
supporting litigation is sufficient to support and justify a settlement negotiated
consistent with the Federal Acquisition Regulation.




                                                                                          DODIG-2014-077│ 9
Finding B



                 Recommendation, Management Comments, and
                 Our Response
                 Recommendation
                 We recommend that the Director, Defense Contract Management Agency, implement
                 a 2-step policy with guidelines that require that a management official oversee an
                 evaluation determining the extent to which data obtained from the trial attorney
                 supporting litigation is sufficient to support and justify a settlement negotiated
                 consistent with the Federal Acquisition Regulation.

                       1.	    Obtain a written evaluation considering at a minimum:

                               a.	 The objections of the trial attorney, if any, to pursuing a settlement.

                               b.	 A determination that the data and information obtained by the trial
                                   attorney to support litigation is sufficient to justify a contracting
                                   officer’s determination in accordance with the Federal Acquisition
                                   Regulation.

                               c.	 Where it is determined that the data and information obtained by
                                   the trial attorney to support litigation is not sufficient to support and
                                   justify a contracting officer’s determination in accordance with the
                                   Federal Acquisition Regulation, an assessment of the actions needed
                                   and time required to obtain sufficient information and data.

                       2.	    When the trial attorney disagrees with the written results of the
                              evaluation, a board of review must assess the trial attorney’s objections.

                 DCMA Comments
                 The Director partially agreed with this recommendation.

                 The Director advised that this is the only instance at DCMA where there was
                 a continuing disagreement between the trial attorney and contracting officer
                 over the terms of a negotiated settlement.          The Director further explained that
                 subsequent to the settlement identified in this report, the Agency established the
                 CACO/DACO group at the Cost and Pricing Center. This group created a common
                 reporting chain staffed with experienced personnel at the GS 15 level and an
                 efficient set of internal controls over for the review and approval of business
                 processes.    The Director stated that current controls provide adequate oversight
                 of a contracting officer settlement in lieu of litigation. In addition, it is not necessary




10 │ DODIG-2014-077
                                                                                                 Finding B



or practicable to require a Board of Review to assess trial attorney’s settlement
objections for cases that are in active litigation. There are very short time constraints
over settlement discussions and the Government representative needs to be able to
respond quickly to settlement offers.

The Director agreed that in the future, the Agency will amend its Defense
Contract    Management       Agency     Instruction   134,   “Boards   of     Review,”   by
July 2014 to ensure (1) documentation of deliberations and proper resolution of issues
regarding settlement are addressed in either the pre-negotiation memorandum
or   post   negotiation   memoranda       and   (2)   that   a   GS-1102-15    Supervisory
Team Leader review is required for the settlement actions for all contracting officers.

Subsequent to the Director providing comments to the draft of this report the
OIG met with the Defense Contract Management Agency Director of Cost and
Pricing Policy and Associate General Counsel about the partial concurrence. At the
meeting, they provided a recently found policy, DCMA-GC Operating Instruction 2,
“Resolution of Intra-General Counsel Differences” dated December 22, 2008.
The Instruction provides a process for an attorney to air disagreements outside
the Agency, including disagreements of the type reported on in our report.
At our request, the General Counsel updated the out-of-date content the Instruction,
reissued it on April 4, 2014 and then distributed it as a policy memorandum
to all attorneys on April 7, 2014.


Our Response
The comments from DCMA and DCMA actions are fully responsive.                            We
believe that the actions taken and the actions planned can provide a control
mechanism to help prevent any reoccurrence of the events described in this report. No
further comments are required.




                                                                                          DODIG-2014-077│ 11
Finding C




                 Finding C
                 DCAA Assistance Negatively Impacted the
                 Settlement Amount
                 The DCAA settlement position of $234 million offered to DCMA senior management
                 was not consistent with the principles articulated in the Federal Acquisition
                 Regulation (FAR), Cost Accounting Standards (CAS) or the intent of Footnote 19 from
                 the decision of U.S. Court of Appeals for the Federal Circuit. DCAA did not perform
                 sufficient work to validate the $12.2 billion in revenue share payments asserted by
                 Pratt.       In making its recommendation, DCAA inappropriately provided advice on
                 litigative risk. Additionally, the DCAA position did not consider the DCMA Senior Trial
                 Attorney’s litigative strategy to have Pratt bear the burden in court regarding the
                 legitimacy of the revenue share payments. The DCAA settlement recommendation of
                 $234 million resulted in a substantial reduction in the settlement expectation
                 anticipated by DCMA.


                 DCAA provided advisory services7 to the DCMA Senior Trial Attorney and to the DCMA
                 DACO throughout the settlement process. From January 2005 through March 2005,
                 DCAA participated in a ‘data exchange’ with Pratt as a part of the effort by DCMA senior
                 management to facilitate a negotiated settlement. As part of the data exchange, Pratt
                 provided DCAA and the DCMA team with data and information regarding the revenue
                 share payments Pratt asserted it made to its parts suppliers from 1984 through
                 2004. The data provided by Pratt showed it made more than $12.2 billion in revenue
                 share payments to suppliers for engine parts during this period. Of the $12.2 billion
                 Pratt asserted that more than $7.1 billion represented payments for items other than
                 parts. However, Pratt failed to provide evidence to substantiate the assertion.

                 The U.S. Court of Appeals for the Federal Circuit had ruled on January 15, 2003, that
                 the terms “cost” and “material cost,” as used in the CAS, include the revenue share
                 payments made by Pratt for the parts under the collaboration agreements.                                                 The
                 U.S. Court of Appeals for the Federal Circuit provided in Footnote 19 of the decision that:


                 	7	
                       DoD Directive 5105.36, “Defense Contract Audit Agency,” February 28, 2002 provided that DCAA shall provide accounting
                       and financial advisory services regarding contracts to all DoD Components responsible for procurement and contract
                       administration services. DCAA provides audit policy to its auditors in the form of the DCAA Contract Audit Manual (DCAM).
                       DCAM Chapter 15-500 Section 5, “Procedures for Actual or Potential Contract Disputes Cases,” identifies the auditor’s
                       responsibilities when supporting the Government trial attorney.




12 │ DODIG-2014-077
                                                                                                      Finding C



                  To the extent that Pratt may argue that some portion of the revenue
                  shares represented payments for items other than parts, Pratt may
                  provide that evidence on remand. The burden is upon Pratt, however,
                  to show that the revenue share payments included payments beyond
                  that for the collaboration parts.


In the data exchange, Pratt did not provide evidence to show that $7.1  billion
represented payments for items other than collaboration parts.

The DCMA Senior Trial Attorney stated that he planned to establish in court the
legitimacy of the $7.1 billion in revenue share payments for items other than parts. He
chose not to seek additional data from Pratt through discovery. Additionally, he stated
that it was his belief that Pratt would never settle administratively for an amount that
was reasonable. He believed the only way to attain equity was through litigation.

DCAA did not perform sufficient work to validate the information provided by Pratt
through the data exchange and support its recommended settlement position
of $234  million.             Without the benefit of evidence from Pratt to show that the
$12.2 billion in revenue share payments included $7.1 billion in payments beyond that
for the collaboration parts, DCAA took steps internally to determine which portions
of the $7.1 billion qualified as payments.

On March 31, 2005, DCAA provided the results of its work to the Director, DCMA East
and the DCMA Senior Trial Attorney.8 DCAA concluded in part that:

              •	 the direction provided by the U.S. Court of Appeals for the Federal Circuit
                  in Footnote 19 was not feasible,

              •	 the total revenue share payments less payments for items other than parts
                  as provided by Pratt in the data exchange could be used retroactively, and

              •	 the use of a Pratt estimate of the cost to make the parts in-house in lieu
                  of the actual cost to obtain the parts from a supplier may be a viable
                  solution prospectively.

On April 28, 2005, the Regional Director, DCAA, provided the Director, DCMA East,
the DCAA recommended settlement amount of $234 million. At that time, the DCMA
settlement offer to Pratt was $605 million.




	 8	
       See Appendix B, Chronology of Events.




                                                                                               DODIG-2014-077 │ 13
Finding C



                 DCAA based its recommended settlement position on an estimate obtained from
                 Pratt. DCAA used an estimate of the cost to Pratt to manufacture the parts in-house in
                 lieu of obtaining the parts from the suppliers.         DCAA asserted this amount was
                 $334 million. DCAA then stated that:

                             recognizing there are certain litigative risks associated with this
                             issue, we believe it is reasonable to agree to 70% of the $334 million
                             total impact, or $234 million.


                 On June 2, 2005, the Commander, DCMA Aircraft Propulsion Operations, based on
                 the DCAA work product, recommended to the Director, DCMA East, that DCMA settle
                 the case for $315 million. The DCMA Counsel, Hartford, recommended that DCMA
                 settle for $307 million.

                 On June 6, 2005, the Director, DCMA East, advised the Director, DCMA, that the
                 Government team had splintered and had differing opinions about the settlement
                 amount, the lowest of which was the DCAA amount of $234 million.

                 On June 20, 2005, the Director, DCMA East, directed the DACO to form a second
                 team to try to reach a negotiated settlement with Pratt. This action led the DCMA
                 contracting personnel and the DACO team at Pratt to conclude that further litigation
                 was not an option and to direct their attention to achieving a negotiated settlement.
                 Also on June 20, 2005, the DCMA Senior Trial Attorney reduced his settlement offer to
                 Pratt to $514 million. Pratt’s counter offer remained at $175 million.

                 The DCMA Senior Trial Attorney advised the Office of Inspector General (OIG) that he
                 had not requested that DCAA provide the Director, DCMA East, with a recommendation
                 on a reasonable settlement amount. He also had not assisted DCAA with identifying
                 any specific ‘litigative risks’ associated with its recommendation.

                 By using an estimate instead of the actual cost of the parts, the DCAA settlement
                 position of $234 million was not compliant with CAS 418 and was not consistent
                 with the intent of the Court as stated in Footnote 19 from the decision of U.S. Court
                 of Appeals requiring Pratt to substantiate the cost of the parts.

                 DCAA did not perform sufficient work to validate the assertions made by Pratt through
                 the data exchange and to support its recommended settlement position. Without having
                 performed sufficient work, DCAA did not have evidence to opine on the assertions
                 made by Pratt. DCAA audit policy provided in the DCAA Contract Audit Manual (DCAM)
                 Paragraph 2-302.3, “Evidence (GAGAS 6.04b),” states that:




14 │ DODIG-2014-077
                                                                                                     Finding C



              The auditor’s work shall include the examination or development
              of sufficient evidence to afford a reasonable basis for the auditor’s
              conclusions and recommendations regarding cost representations,
              management decisions influencing costs, financial statements, or any
              other matters requiring the auditor’s opinion.


Regarding the DCAA position on litigative risks, DCAM 15-506.2, “Support Government
Trial Attorney,” states that:

              Field auditors should provide only basic accounting information and
              specific issue (factual) support. They should exercise special care to
              avoid expressing opinions on subjects outside the accounting field. They
              should not express legal or engineering opinions… For example, auditors
              should avoid assessing the litigative risk of a case. This responsibility for
              board or court cases rests with the Government trial attorney.


The former Director, DCAA advised the OIG that he was not aware of the data
exchange at the time. When shown the specifics of Footnote 19 and the opinion of the
Court, and asked whether he would have anticipated that the auditors’ in doing their
data exchange, would have wanted to see that the contractor had followed Footnote 19,
he replied:

              Oh, absolutely, yeah. I guess I would go so far to say that if the
              contractor did provide sufficient evidence, that the portion of the
              revenue shares was for something other than the parts cost, and
              we agreed it was, probably should have issued a supplemental
              audit report.


Regarding the DCAA assessment of litigative risk, the former Director, DCAA, stated
that DCAA is not qualified to assess litigative risk.

Regarding the level of reliance that he placed on the DCAA recommended settlement
amount, the former Director, DCMA East, advised the OIG that:

              If they said that they felt that was reasonable, and I got it from basically
              and essentially a counterpart of mine, I would think that it was in the
              ballpark. I mean I -- who was I to go back and question something like
              that just from a knowledge of accounting and a knowledge of auditing
              and professional standards, I couldn’t do it.


The OIG asked the former Director, DCMA, how the information provided to him in
June of 2005 by the Director, DCMA East, had influenced his understanding of the
settlement negotiations. He advised the OIG that he could not recall the specifics.




                                                                                              DODIG-2014-077 │ 15
Finding C



                 When the OIG advised him that at that time the Government team had three positions
                 on settlement, including the Commander’s position of $315 million, the local counsel’s
                 position of $307  million, and the DCAA position of $234 million, the former Director,
                 DCMA stated in part that:

                            We are talking on making offers in the $600 million range, and then
                            you come up and say, ‘Well, we think we can justify $315, $307, and
                            $235 million,’ that would get my attention.

                            I would have given [the DCAA position of $234 million] a lot of weight.

                            Most contracts guys would look at the DCAA numbers and say, ‘If I got
                            a number for DCAA, I got to have a really good reason to deviate from
                            it significantly.


                 Recommendation, Management Comments, and
                 Our Response
                 Recommendation
                 We recommend that the Director, Defense Contract Audit Agency, perform an internal
                 review to assess auditor adherence to the requirements of DCAA Contract Audit
                 Manual 15-506.2, “Support Government Trial Attorney,” and take necessary corrective
                 action, as warranted.


                 DCAA Comments
                 The Director did not agree with this recommendation and does not consider it
                 necessary to perform an internal review. The Director disclosed that many of the
                 individuals involved with the subject case are no longer with DCAA. As a result, the
                 Director contends that the basis of the DCAA assertions in the settlement
                 correspondence quoted in the report can not be determined. Specifically, the basis
                 can not be identified for the 70 percent reduction DCAA applied in recommending
                 the settlement.     However, the Director explained further that DCAA reviewed
                 pertinent documents and correspondence in its files and considers the advisory
                 services provided by the DCAA to have complied with Agency guidance. The Director
                 concluded that any litigative strategy relating to this issue was within the sole
                 discretion and direction of the DCMA contracting officer and trial attorneys.




16 │ DODIG-2014-077
                                                                                        Finding C



Our Response
The comments from DCAA are not responsive.       The Director did not adequately
consider the evidence we outlined in the finding or provided during discussions.
For instance while stating that the basis of the 70 percent reduction was unclear,
the Director apparently neglects the statements of the DCMA interviewees, who
unequivocally deny being the source of this proposal, as well as statements of the
DCAA interviewees who pointedly decline to refute that they, in fact, were the
source.   The Director also apparently neglects to consider e-mail correspondence
from DCAA to the DCMA Division Director in which DCMA attorneys were not
included, wherein DCAA refutes the DCMA trial attorneys’ litigation strategy
and advocates a different settlement strategy.    When DCAA recommended, in
writing, a reasonable settlement position that factored in litigative risk (not
provided by or agreed to by the DCMA attorneys), DCAA went beyond its guidance
to provide basic accounting information and factual support to the contracting
officer and DCMA Counsel.

In the subsequent meetings after receiving the response, DCAA did not provide new
evidence for us to consider or factual support for the assertions in its response.

We request that the Director of DCAA reconsider the DCAA position or provide
additional evidence and/or comments to substantiate the DCAA position in response
to the final report.




                                                                                 DODIG-2014-077 │ 17
Finding D




                 Finding D
                 DCMA Legal Counsel Unable to Influence Decision
                 to Settle
                 The DCMA CMO at Pratt was able to conclude negotiations with Pratt and settle
                 the case for $283 million despite the advice of the DCMA Chief Trial Attorney that
                 the settlement position did not “adequately represent the Government’s best
                 interest.” The DACO team and DCMA management were willing to reach a negotiated
                 settlement for an amount that was significantly less than the recovery anticipated
                 by the DCMA Senior Trial Attorney.

                 By approving the DACO’s prenegotiation memorandum, the DCMA contract
                 management office gave the DACO approval to negotiate a settlement that fell within
                 a range of $269 million to $324.5 million. In contrast, the DCMA Senior Trial Attorney
                 concluded in his May 26, 2005, Litigative Risk Assessment that the U.S. Government’s
                 worst case recovery if litigation proceeded to conclusion was $416.9 million, but that
                 the U.S. Government should expect to recover more.


                 On April 4, 2006, the DACO’s prenegotiation memorandum was provided to the
                 Chief Trial Attorney, Contract Disputes Resolution Center, DCMA, for comment. On
                 April 10, 2006, the Chief Trial Attorney advised the Acting General Counsel, DCMA that:

                            We do not feel that the Command’s position adequately represents
                            the Government’s best interests and, accordingly, do not concur in the
                            position.

                            The burden to demonstrate that the revenue share payments included
                            payment beyond that for the collaboration parts themselves is upon
                            Pratt. The burden is not upon the Government to make Pratt’s case
                            for them. Under Pratt’s own collaboration agreements, the only items
                            for which Pratt pays are the parts. All other payments other than the
                            [revenue share payments] payments made under Pratt’s collaboration
                            agreements … are payments by the collaborators to Pratt. Pratt has
                            not shown that its [revenue share payments] to the collaborators are
                            for anything but parts.

                            We have seen nothing stated in the [pre-negotiation memorandum]
                            which leads us to change our litigation risk assessment of May 26, 2005.
                            Pratt has presented no arguments, or evidence, to make us reconsider our
                            earlier assessment. The only thing that has changed is the Command’s
                            willingness to accept, in advance of negotiation, Pratt’s arguments...




18 │ DODIG-2014-077
                                                                                                                                  Finding D



                We do not understand, or agree with, the Command’s negotiating
                position.


Despite the objections of the DCMA Chief Trial Attorney, the DCMA CMO at Pratt
proceeded with settlement negotiations.

On April 29, 2006, the DACO and the DCMA Group Chief, Operations Division9
(Finding E) reached a tentative settlement agreement with Pratt for $283 million. The
tentative settlement amount was approved by the Director, DCMA East, on May 1, 2006.
The Acting General Counsel, DCMA, did not intercede to ensure the settlement was
consistent with the intent of the Court as stated in Footnote 19 of the U.S. Court
of Appeals. On June 5, 2006, the DACO signed an agreement with Pratt that settled the
monetary damages resulting from the CAS noncompliances from 1984 through 2004
for $283 million. This amount was $133.9 million less than the litigative recovery
of $416.9  million anticipated by the DCMA Senior Trial Attorney in his litigative risk
assessment and almost $471.7 million less than the $754.7 million demand for payment
that DCMA had made to Pratt on November 24, 2003. It was also only $23 million more
than the $260 million that the U.S. Government sought from Pratt in its final decision
in 1996.10

In discussions with the OIG, the Acting General Counsel, DCMA, stated he could agree
with a procedure wherein a contracting officer is not allowed to settle a case that
is in litigation unless the contracting officer gets the agreement of the trial attorney.

Current policy, DCMA Instruction 905, “Contract Claims and Disputes,” states:

                3.4.3. Once litigation at the ASBCA has commenced, the Contracting
                Officer shall consult with the assigned CDRC trial attorney and other
                appropriate advisors (e.g., audit, technical) before attempting any
                settlement. In the event of any material disagreement between the
                Contracting Officer and the CDRC trial attorney concerning the best
                course of action for the agency, the Contracting Officer shall elevate the
                matter for resolution at least one level above each individual.


As identified above the ‘material disagreement’ was elevated at least one level above
each individual. However, the additional oversight brought to bear in each respective
chain of command did not resolve the significant issues raised by Chief Trial Attorney.


	 9	
     DCMA agreed with Pratt that both sides of the negotiation would be represented by two people from the “business side of
    the house” and that attorneys would not be present.
	10	
     In 1996 the U.S. Government demanded that Pratt pay $260 million to settle the same case for the period 1984 through
    1995. See Appendix C, Chronology of Significant Amounts.




                                                                                                                           DODIG-2014-077 │ 19
Finding D



                 Additionally, DCMA Instruction 134, “Boards of Review” does not require that a
                 ‘material disagreement’ that remains unresolved be subjected to a Board of Review
                 prior to management approval of any settlement negotiations with a contractor.


                 Recommendation, Management Comments, and
                 Our Response
                 Recommendation
                 We recommend that the Director, Defense Contract Management Agency, evaluate
                 the Defense Contract Management Agency Instruction 134, “Boards of Review,”
                 and determine the feasibility of requiring that ‘material disagreements’ between a
                 contracting officer and a Trial Attorney regarding the decision to seek a negotiated
                 settlement with the contractor be elevated to a board of review.


                 DCMA Comments
                 The Director partially agreed with this recommendation and addressed the details
                 in the management comments provided in response to Recommendation B.


                 Our Response
                 Due to the reissuance of the policy, “Resolution of Intra-General Counsel Differences”
                 described in Finding B, we consider the comments from DCMA and DCMA actions fully
                 responsive. No further comments are required.




20 │ DODIG-2014-077
                                                                                                                               Finding E




Finding E
DCMA Did Not Vet One of Two Settlement Negotiators
At settlement negotiations held in late April and early May, 2006, one of the two
DCMA employees representing the U.S. Government at the negotiation table was a
former employee of Sikorsky Aircraft Corporation.                             Sikorsky is another business
unit of the United Technology Corporation. In March of 2006, Counsel, DCMA East,
had been notified by the Chief Trial Attorney, DCMA, of a potential conflict of interest
problem that could arise by having a former employee of another UTC business unit
participating directly in negotiations between the U.S. Government and Pratt. The
Group Chief had never worked for Pratt. Nonetheless, Counsel, DCMA East, acting in
the role of East Region Ethics Advisor, did not act on the conflict of interest allegation
at the time.


The employee in question, the Group Chief, Business Operations, DCMA Aircraft
Propulsion Operations Pratt, also supervised the other DCMA employee at the
negotiation table−the DACO.                   The Group Chief had been hired by DCMA in
November  2005 from his quality management position with Sikorsky.                                           Prior to
his employment with Sikorsky, the Group Chief was a Lieutenant Colonel in the
U.S. Air Force where he served as the Commander, DCMA Pratt. He retired from
Military Service in 2004.

As a result of our inquiry, on February 3, 2012, Counsel for the DCMA Eastern Regional
Command drafted a legal opinion11 for the record based on the facts at the time.
DCMA policy did not and does not require general counsel conflict of interest and
impartiality reviews be documented in writing at the time concerns are identified.
Counsel concluded and the OIG agrees that “[t]he Agency should have evaluated
[Group Chief’s] participation in conjunction with the standards of 5 CFR §2635.502,
‘Personal and business relationships’”. However, in evaluating all the facts, Counsel
for the DCMA Eastern Regional Command concluded that the Group Chief did not
have a statutory conflict when he participated in settlement discussions in 2006 and
that a reasonable person with knowledge of all the facts would not question the
impartiality of the Group Chief in the matter. Finally, Counsel concluded that she
would have authorized the Group Chief to participate in the negotiations.



	11	
   The “legal opinion” was a memorandum for record that documented the conflict of interest review. The review considered
   the Standards of Ethical Conduct for Employees of the Executive Branch in 5 CFR Part 2635.




                                                                                                                        DODIG-2014-077 │ 21
Finding E



                 Though in this circumstance, the potential conflict did not result in a problem in
                 relation to the negotiation, we believe that the Director, DCMA, should consider
                 implementing a best practice wherein general counsel conflict of interest and
                 impartiality reviews are documented in writing at the time concerns are identified.


                 Recommendation, Management Comments, and
                 Our Response
                 Recommendation
                 We recommend that the Director, Defense Contract Management Agency, implement
                 a best practice wherein general counsel conflict of interest and impartiality
                 reviews are documented in writing at the time concerns are identified.


                 DCMA Comments
                 The Director agreed and stated that the Office of the General Counsel will implement
                 a best practice wherein general counsel conflict of interest and impartiality reviews
                 are documented in writing at the time concerns are identified.


                 Our Response
                 The comments from DCMA are fully responsive, and no additional comments
                 are required.




22 │ DODIG-2014-077
                                                                                                                                      Finding F




Finding F
DCMA Taking Action to Correct Continuing Cost
Accounting Standards Noncompliance
On April 17, 2013, the OIG issued a Notice of Concern13 advising the Director, DCMA,
that its CAS administration practices at United Technologies Corporation, Pratt, did not
provide positive assurance that the U.S. Government avoided paying windfall profits
on its CAS-covered contracts with Pratt (Appendix D). Since 1984, DCMA has not
administered a CAS-compliant accounting practice at Pratt for collaboration parts
and the current noncompliant practice may yet again be resulting in increased cost
paid by the U.S. Government. On May 24, 2013, DCMA concurred with each of our
recommendations and will provide the OIG with semiannual updates until each
recommendation has been successfully implemented (Appendix E).


FAR 30.605, “Processing Noncompliances,” provides procedures that DCMA shall
follow to have a contractor correct a noncompliant cost accounting practice and obtain
a cost impact proposal.12On June 5, 2006, the DACO approved Pratt’s use, starting
in 2005, of an estimate to account for the cost of the parts, in lieu of the actual cost
of the parts.13 The DACO found that the practice was noncompliant with CAS 418
but was resulting in an immaterial cost impact on CAS-covered contracts. However,
neither DCMA nor DCAA were monitoring the noncompliance to ensure it remained
immaterial.

As a result of our oversight review into the settlement, DCAA reported on
September  22,  2011, that the Pratt noncompliant cost accounting practice
may be resulting in an estimated cost impact of as much as $15.2 million for the
year examined by DCAA – FY  2009. Additionally, neither DCMA nor DCAA had acted
to compel Pratt to abide by Footnote 19 of the ruling of the U.S. Court of Appeals
for the Federal Circuit.               Pratt still has collaboration agreements that use revenue
share payments and has yet to show the U.S. Government that the revenue
share payments made to its collaboration partners since 2005 included payments
beyond that for the collaboration parts. Finally, DCMA had not taken action to have
Pratt implement a CAS-compliant cost accounting practice for the cost of parts
acquired through collaboration agreements.


	12	
     A Notice of Concern is issued to alert DoD management of significant findings that require immediate attention. By issuing
    a Notice of Concern, DoD management officials can take proactive steps to mitigate the reported issue.
	13	
     CAS 418 requires the use of actual cost.




                                                                                                                              DODIG-2014-077 │ 23
Finding F



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendations
                 Our Notice of Concern (Appendix D) included eight recommendations.         DCMA
                 agreed with each recommendation (Appendix E) and agreed to provide the OIG
                 with semiannual updates until each recommendation is successfully implemented.
                 We consider the DCMA response to our Notice of Concern recommendations to
                 be responsive.


                 DCMA Comments
                 The Director reaffirmed concurrence with the eight recommendations and agreed
                 to provide status updates on request.

                 On March 24, 2014, Executive Director of Contracts, DCMA notified the OIG of
                 the current status of actions taken in response to the recommendations in the
                 Notice of Concern.     In accordance with FAR 52.233-1, DCMA notified Pratt of
                 the final decision that it was noncompliant with CAS 418 from January 1, 2005,
                 to December 31, 2012 and demanded that Pratt repay $210,968,414 to the
                 U.S. Government.     Pratt appealed the final decision to the Armed Service Board
                 of Contract Appeals and the case was established as 59222.


                 Our Response
                 The comments from DCMA are fully responsive, and no additional comments
                 are required.




24 │DODIG-2014-077
                                                                                           Appendixes




Appendix A
Scope and Methodology
We performed this project from October 2009 through May 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, “Quality Standards
for Inspection and Evaluation.” Those standards require that we plan and perform the
review to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our review objectives. To determine the validity
of the Defense Hotline complaint, we:

        •	 obtained and reviewed DCAA and DCMA legal, negotiation, and settlement
           files and documentation;

        •	 obtained and reviewed relevant e-mail communications relating to
           negotiation and settlement;

        •	 reviewed applicable laws, regulations, DoD Instructions, DCMA instructions,
           and DCAA policies;

        •	 conducted interviews with DCMA and DCAA personnel including members
           of management who had influence or participated in the negotiation and
           settlement, including former Directors of both agencies;

        •	 coordinated with Defense Criminal Investigate Service; and

        •	 coordinated with OIG legal throughout the process for advice and for
           assistance with obtaining records and testimony.


Use of Computer-Processed Data
We did not rely on computer-processed data as part of our review.


Prior Coverage
In the last 5 years, we have issued three other reports on DCMA contracting officer
actions in response to DCAA audit reports.

Report No. D-2010-6-002, “Report on Allegation of Unsatisfactory Conditions
Regarding Actions by the Defense Contract Management Agency, Earned Value
Management Center,” July 28, 2010.




                                                                                      DODIG-2014-077 │ 25
Appendixes



                 Report No. D-2009-6-008, “Report on Hotline Complaint Regarding the Actions by a
                 Contracting Officer at the Defense Contract Management Agency, East Hartford Office,”
                 August 31, 2009.

                 Report No. D-2009-6-004, “Defense Contract Management Agency Actions on Audits
                 of Cost Accounting Standards and Internal Control Systems at DOD Contractors
                 Involved in Iraq Reconstruction Activities,” April 8, 2009.




26 │ DODIG-2014-077
                                                                                                            Appendixes




Appendix B
Chronology of Events
        Date                                            Description
1991 (multiple dates)   DCAA reported that Pratt had not complied with CAS 410, 418, and 420
                        when accounting for the cost of material obtained through the use of
                        collaboration agreements.
December 2, 1996        DCMA determined that Pratt had not complied with the cited CAS and
                        issued a demand for payment to Pratt in the amount of $260 million.
July 30, 2001           Pratt appealed the DCMA decision to the Armed Services Board of
                        Contract Appeals who decided in favor of Pratt.
January 15, 2003        The U.S. Government appealed the decision to the U.S. Court of Appeals
                        for the Federal Circuit who vacated the ASBCA decision and remanded the
                        case to the ASBCA to include a determination of damages.
November 24, 2003       DCMA issued an updated demand to Pratt in the amount of $754.7 million
                        to recover the estimated increased costs paid by the U.S. Government to
                        Pratt from 1984 through 2002. Amount is a “Rough Order of Magnitude”
                        produced by DCAA as a nonaudit service.
August 24, 2004         Director, DCMA, discussed ongoing litigation with Pratt at the Air Force
                        Material Command Strategic Suppliers Summit.
September 2004          DCMA Director received factsheet from Director, DCMA East; both
(multiple dates)        Directors were briefed on the case in detail. DCMA Director East on behalf
                        of DCMA Director communicated to Pratt their willingness to meet and
                        discuss the cost accounting issue.
October 12, 2004        DCMA Director sent a letter to Pratt communicating that a negotiated
                        resolution of this matter was a desirable goal and invited them to present
                        their settlement position.
December 2004           DACO delegated negotiation authority for the settlement to the Senior
                        Trial Attorney. Pratt offered $125 million to settle; DCMA (with Director
                        East approval) countered with $605 million and Pratt responded that
                        counter offer was too high.
January - March 2005    Pratt data exchange with DCAA and DCMA.
March 30 2005           DCAA Northeastern Regional Director e-mailed the DCAA Director a
                        briefing sheet that identified a range of settlement positions calculated by
                        DCAA as a nonaudit service.
March 31 2005           DCAA Northeastern Regional Director with staff briefed Director, DCMA
                        East, and the Senior Trial Attorney on the summary of impacts for
                        settlement discussions using the Pratt assertions included within the data
                        exchange. DCAA presented:
                           •	 Pratt’s next offer would be between $136 and $233 million.
                           •	 Direction provided by the U.S. Court of Appeals for the Federal
                                Circuit in Footnote 19 was not feasible.
                           •	 Total revenue share payments less payments for items other than
                                parts as provided by Pratt in the data exchange could be used
                                retroactively.
                           •	 Pratt estimate of the cost to make the parts in-house in lieu of
                                the actual cost to obtain the parts from a supplier may be a viable
                                solution prospectively.
                           •	 $200 million was a reasonable recovery considering Pratt’s
                                explanation that some portion of the revenue shares represented
                                payments for items other than parts.




                                                                                                       DODIG-2014-077 │ 27
Appendixes



                 Chronology of Events (cont’d)
                              Date                                          Description
                      April 2005            Pratt offered $175 million settlement based on data exchange. DCAA
                                            Northeastern Regional Director responded to Director, DCMA East request
                                            and stated that DCAA believed:
                                               •	 $334 million is a reasonable estimate of the cost impact (based on
                                                     estimate of the cost to Pratt to manufacture);
                                               •	 $234 million is a reasonable settlement, recognizing certain
                                                     litigative risks associated with this issue.
                      May 26, 2005          Senior Trial Attorney issues litigative risk assessment to DCMA Counsel and
                                            Director, DCMA East. Outlined recovery range from $814-$417 million if
                                            litigation proceeds to conclusion. Outlined an expectation of settlement
                                            around $420 million with a minimum of $375 million.
                      June 2, 2005          “Government-Only Meeting” wherein the litigation strategy and
                                            negotiation strategy were discussed. Based on the DCAA work product,
                                            the following expressed their expectation of recovery:
                                               •	 $315 million - Commander, DCMA Aircraft Propulsion Operations
                                               •	 $307 million - DCMA Counsel, Hartford
                                               •	 $234 million - DCAA
                      June 6, 2005          Director, DCMA East, conducted a video teleconference with the Director,
                                            DCMA advising that the Government team had splintered and had differing
                                            opinions about the settlement amount, the lowest of which was the DCAA
                                            position of $234 million.
                      June 20, 2005         Senior Trial Attorney offered to Pratt to settle for $514 million but
                                            Pratt’s counter offer remained at $175 million. Subsequently Director,
                                            DCMA East, directed the DACO to form a second team to try to reach an
                                            administrative settlement with Pratt.
                      September 17, 2005    Senior Trial Attorney explained to Commander, DCMA Aircraft Propulsion
                                            Operations, that nothing new had occurred with respect to settlement
                                            since the June 20 meeting, and litigation was proceeding.
                      September 26, 2005    Director, DCMA East, was promoted to Deputy Director, DCMA.
                      October 31, 2005      DACO via Commander, DCMA Aircraft Propulsion Operations, provided
                                            Counsel, DCMA East, a proposed agreement with Pratt wherein the DACO
                                            would agree to allow Pratt prospective use of an estimate of the cost to
                                            Pratt to manufacture the parts in-house in lieu of obtaining the parts from
                                            the suppliers.
                      November 10, 2005     Senior Trial Attorney responding on behalf of Contract Disputes Resolution
                                            Center responded to Counsel, DCMA East, that they could not support the
                                            agreement proposed by the DACO.
                      November 14, 2005     United Technology Corporation, Sikorsky Aircraft Corporation, employee
                                            became Group Chief, Business Operations, DCMA Aircraft Propulsion
                                            Operations Pratt.
                      January 12, 2006      Director, DCMA East, who was promoted to Deputy Director, DCMA, is
                                            promoted to Acting Director, DCMA.
                      January 25-31, 2006   Group Chief, Business Operations, DCMA Aircraft Propulsion Operations
                                            Pratt, conducted a going forward strategy meeting for the CMO. DACO
                                            issued delegation amendment to Senior Trial Attorney for negotiation
                                            authority and started to develop a prenegotiation settlement objective
                                            with DCAA and local counsel.
                      March 3, 2006         Senior Trial Attorney delegation for negotiation authority expired and he
                                            requested a 90-day extension.




28 │ DODIG-2014-077
                                                                                                        Appendixes



Chronology of Events (cont’d)
        Date                                        Description
March 21, 2006      Commander, DCMA Aircraft Propulsion Operations, Pratt, notified
                    Commander, DCMA Aircraft Propulsion Operations, that the DACO was
                    prepared to proceed with settlement negotiations pending approval to
                    proceed.
March 22, 2006      Chief Trial Attorney, Contract Disputes Resolution Center notified Counsel,
                    DCMA East, that there were concerns with the former Sikorsky employee
                    (now Group Chief, Business Operations, DCMA Aircraft Propulsion
                    Operations Pratt), the least of which were a former employee of another
                    UTC business unit participating directly in negotiations between the U.S.
                    Government and Pratt and how that would appear.
April 4, 2006       Counsel, DCMA Hartford, provided the prenegotiation settlement objective
                    to Acting General Counsel, DCMA; Counsel, DCMA East; and Contract
                    Disputes Resolution Center on behalf of the Commander, DCMA Aircraft
                    Propulsion Operations, and the DACO.
April 10, 2006      Chief Trial Attorney, Contract Disputes Resolution Center informed the
                    Acting General Counsel, DCMA; DCMA East; and Counsel, DCMA Hartford
                    that the litigation team did not concur to the CMO’s pre-negotiation
                    settlement objective.
April 11-12, 2006   Commander, DCMA Aircraft Propulsion Operations decided to proceed
                    with settlement without Senior Trial Attorney.

                    Senior Trial Attorney informed Pratt:
                       •	 Senior Trial Attorney authority to negotiate the dispute in litigation
                            expired, and
                       •	 DACO and the CMO would like to undertake the negotiation by
                            themselves.
April 26-27, 2006   Group Chief, Business Operations, DCMA Aircraft Propulsion Operations
                    Pratt and DACO conducted settlement negotiations with Pratt. Pratt’s last
                    offer was $270 million, and the Government’s last offer was $291 million.
April 29, 2006      Pratt offered settlement for $283 million.
May 1, 2006         DACO accepted Pratt’s offer after approval from the Director, DCMA East.
June 5, 2006        DACO and Pratt sign:
                      •	 “Settlement Agreement,” which settled the historical issues in the
                          amount of $283 million for the period 1984-2004.
                      •	 “Collaboration Agreement,” settled the prospective issues
                          approving for use by Pratt a noncompliant cost accounting practice
                          to account for the cost of parts acquired through its collaboration
                          agreements.




                                                                                                   DODIG-2014-077 │ 29
Appendixes




                 Appendix C
                 Chronology of Significant Amounts
                         Date Proposed      Amount                              Description
                      December 2, 1996    $260,000,000   DCMA Demand for Payment for 1984-1995.
                      November 24, 2003   $754,700,000   DCMA Demand for Payment for 1984-2002. Amount is
                                                         a “Rough Order of Magnitude” produced by DCAA as a
                                                         nonaudit service.
                      December 9, 2004    $125,000,000   Pratt Offer
                      December 22, 2004   $605,000,000   DCMA Counter Offer
                      December 22, 2004   $375,000,000   DACO delegated negotiation authority for the settlement
                                                         to Senior Trial Attorney with this as a minimum.
                      March 31, 2005      $200,000,000   DCAA verbally advised this was a reasonable recovery
                                                         considering Pratt’s explanation that some portion of the
                                                         revenue shares represented payments for items other
                                                         than parts.
                      April 12, 2005      $175,000,000   Pratt Offer
                      April 28, 2005      $234,000,000   DCAA Litigative Risk Assessment identified what DCAA
                                                         considered to be an acceptable cost recovery for 1984-
                                                         2004.
                      May 26, 2005        $814,000,000   An internal estimate compiled for the Senior Trial
                                                         Attorney, DCMA but never served to Pratt. The estimate
                                                         updated the Nov. 23, 2003 demand for (1) an additional
                                                         2 years of data, 2003 - 2004; (2) inclusion of the impact
                                                         of Pratt Military Engines general and administrative
                                                         expenses; and (3) a change in method and the use of
                                                         agreed-upon data.
                      May 26, 2005        $416,900,000   DCMA Litigative Risk Assessment worst case scenario on
                                                         recovery but expect to recover more.
                      May 26, 2005        $375,300,000   DCMA Litigative Risk Assessment absolute minimum on
                                                         recovery through negotiations.
                      June 2, 2005        $315,000,000   “Government-Only Meeting” wherein the litigation
                                                         strategy and negotiation strategy were discussed. Using
                                                         the DCAA work product, the Commander, DCMA Aircraft
                                                         Propulsion Operations, expressed expectation of lowest
                                                         recovery.
                      June 2, 2005        $307,000,000   “Government-Only Meeting” wherein the litigation
                                                         strategy and negotiation strategy were discussed. Using
                                                         the DCAA work product DCMA Counsel, Hartford,
                                                         expressed expectation of lowest recovery.
                      June 2, 2005        $234,000,000   “Government-Only Meeting” wherein the litigation
                                                         strategy and negotiation strategy were discussed. Using
                                                         the DCAA work product, DCAA expressed expectation of
                                                         lowest recovery.
                      June 20, 2005       $514,000,000   DCMA Offer




30 │ DODIG-2014-077
                                                                                                  Appendixes



Chronology of Significant Amounts (cont’d)
   Date Proposed     Amount                              Description
January 31, 2006   $300,000,000   DACO issued delegation amendment to Senior Trial
                                  Attorney for negotiation authority with this amount as a
                                  minimum.
April 4, 2006      $324,500,000   DCMA prenegotiation settlement objective ceiling.
April 4, 2006      $269,500,000   DCMA prenegotiation settlement objective minimum.
April 28, 2006     $270,000,000   Pratt Offer
April 28, 2006     $291,000,000   DCMA Counter Offer
June 5, 2006       $283,000,000   Settlement




                                                                                             DODIG-2014-077 │ 31
Appendixes




                 Appendix D
                 Notice of Concern




32 │ DODIG-2014-077
                                                                                                              Appendixes



Notice of Concern (cont’d)



               •  If Pratt wanted to argue that some portion of the revenue share payments
                  represented payments for items other than parts, then the burden is on Pratt to
                  show that the revenue share payments included payments beyond that for the
                  collaboration parts.
       •   On November 24, 2003 DCMA demanded that Pratt pay the U.S. Government
           $755 million in increased costs resulting from the CAS noncompliances for the period
           1984 through 2002.
       •   On June 5, 2006 DCMA agreed to settle the impact resulting from the Pratt
           noncompliances for the period 1984 through 2004 for $283 million
       •   When settling the case for $283 million, DCMA did not abide by the decision of the
           United States Court of Appeals for the Federal Circuit and require that Pratt bear its
           burden and show that approximately $5 billion of revenue share payments that DCMA
           accepted as revenue share payments for items other than parts were in fact payments for
           items other than parts.

    The Notice of Concern addresses the actions taken by DCMA in the second period which covers
    2005 to the present.

    Notice of Concern: On June 5, 2006 the DCMA contract management office approved for use
    by Pratt a revised cost accounting practice for collaboration parts. In granting approval, DCMA
    determined the practice was noncompliant with CAS 418 but was not causing a material cost
    impact to U.S. Government contracts. DCMA approved the practice for use starting in 2005.
    The noncompliant practice approved by DCMA, allowed Pratt to use an estimate of the cost of
    collaboration parts included in the allocation base used to allocate material overhead costs to
    U.S. Government contracts instead of the actual cost of the parts. CAS 418 requires a contractor
    use actual cost in the direct material base used to allocate material overhead costs to U.S.
    Government contracts. Under DCMA CAS administration, Pratt is using an estimate for the cost
    of collaboration parts instead of the revenue share payments. In its January 15, 2003 decision,
    the United States Court of Appeals for the Federal Circuit held that: “… Pratt purchased parts
    from its foreign parts suppliers, and the revenue share payments comprise costs for these parts.”

    On April 27, 2010 DCMA advised the OIG that it could not demonstrate that it had monitored
    the cost impact of the ongoing CAS 418 noncompliance to ensure that the cost impact had not
    become material. Neither could DCMA demonstrate that it had taken action to have the
    contractor implement a compliant cost accounting practice in accordance with FAR
    30.605(b)(4)(i)(A).

    Similarly DCAA could not demonstrate to the OIG that it had monitored the materiality of the
    CAS 418 noncompliance since June 5, 2006. DCAA is required by DoD Directive 5105.36 to
    perform all necessary contract audits for DoD and provide accounting and financial advisory
    services regarding contracts to DoD components responsible for contract administration.

    Subsequent to the OIG inquiring about the status of the existing noncompliance, DCAA reported
    on July 27, 2010 that the cost accounting practice used by Pratt to estimate the material overhead
    rates in their forward pricing rate proposal for fiscal years 2010 through 2012 was noncompliant
    with CAS 418. DCAA identified the noncompliant practice as the same practice found

                                                    2




                                                                                                         DODIG-2014-077 │ 33
Appendixes



                 Notice of Concern (cont’d)



                      noncompliant by DCMA on June 5, 2006; i.e. the use of an estimated cost in lieu of the actual
                      cost of collaboration parts in the allocation base used to estimate, accumulate and report material
                      overhead rates. In a second report issued on September 22, 2011 DCAA reported that the
                      existing CAS 418 noncompliance was resulting in a cost impact that DCAA estimated may be as
                      high as $15.2 million for the one year examined by DCAA – fiscal year 2009. DCAA found that
                      Pratt was recording the revenue share payments resulting from its collaboration agreements with
                      its suppliers in its financial accounting records as required by generally accepted accounting
                      principles. However, DCAA did not attempt to adjust its estimated $15.2 million cost impact for
                      any revenue share payments that may or may not have been made for items other than parts. The
                      Court of Appeals for the Federal Circuit put that burden on Pratt.

                      On September 28, 2011, DCMA, after consultation with legal counsel, issued a notice of
                      potential noncompliance with CAS 418 to Pratt. In accordance with FAR 30.605(b)(2)(ii),
                      DCMA allowed Pratt 60 days to either (A) agree or submit reasons why they consider the
                      existing practice to be compliant and (B) submit rationale to support any written statement that
                      the cost impact of the noncompliance is immaterial.

                      Pratt responded to the DCMA notice of potential noncompliance on December 7, 2011 and on
                      August 14, 2012 Pratt advised DCMA that it had been notified on June 5, 2006 of the
                      noncompliance and that the noncompliance remained immaterial.

                      Since receiving the second Pratt response on August 14, 2012, DCMA has neither made a
                      determination of compliance or noncompliance as required by FAR 30.605(b)(3)(ii) and notified
                      the contractor and the auditor in writing of the determination and the basis for the determination
                      as required by FAR 30.605(b)(2)(iii).

                      On January 8, 2013, the OIG briefed the Director, DCMA through the use of an Early Alert on
                      the status of the DCMA effort to process the existing noncompliance with CAS 418 at Pratt. The
                      Director, DCMA provided the OIG with a timeline outlining an accelerated determination and
                      decision making process. On February 27, 2013 the DCMA administrative contracting officer
                      and his team briefed the OIG on the same process. However DCMA has not demonstrated it has
                      taken actions to have Pratt correct the accounting practice that it found noncompliant on
                      June 5, 2006. It also has not demonstrated that it has taken any actions to recover any increased
                      costs that may have been paid by the U.S. Government since 2005. On March 7, 2013 the OIG
                      advised the Director, DCMA that the accelerated determination and decision making process did
                      not comply with FAR 30.605 or protect the interests of the U.S. Government.

                      DCMA has not complied with the requirements of FAR 30.605 Processing Noncompliances
                      when administering a CAS 418 noncompliance at the United Technologies Corporation, Pratt &
                      Whitney. The contractor uses an estimate of the cost of parts acquired through the use of
                      collaboration agreements in lieu of the actual cost of the parts in the allocation base used to
                      estimate, accumulate and report material overhead rates on its U.S. Government contracts.
                      DCMA first notified Pratt that this practice was noncompliant with CAS 418 on June 5, 2006.
                      Pratt has been using this noncompliant practice since 2005. DCAA has reported that in 2009, the
                      only year it has examined and one of eight years where Pratt has used the noncompliant practice,
                      the estimated cost impact may be as high as $15.2 million. The DCMA CAS administration

                                                                      3




34 │ DODIG-2014-077
                                                                                                               Appendixes



Notice of Concern (cont’d)



    practices do not provide positive assurance that the U.S. Government has avoided paying
    windfall profits on its CAS-covered contracts with the United Technologies Corporation, Pratt &
    Whitney.

    Recommendation: We recommend that the Director, DCMA take the following actions in a
    timely manner to ensure that (i) the cost accounting practice used by Pratt include the actual cost
    of collaboration parts in the allocation base used to allocate material overhead costs to U.S.
    Government contracts in accordance with the rules and regulations established by the Cost
    Accounting Standards Board, and (ii) the U.S. Government recovers any increased costs paid to
    Pratt since 2005 and resulting from the contractor’s use of a cost accounting practice determined
    by DCMA to be noncompliant with CAS 418 on June 5, 2006:

           1. If legally required, make a second determination of compliance or noncompliance in
              accordance with FAR 30.605(b)(3)(ii).
           2. If legally required, notify the contractor of this determination in accordance with FAR
              30.605(b)(3)(iii).
           3. Make a determination of materiality in accordance with the requirements of
              FAR 30.605(b)(4).
           4. In making the decision on materiality as required by FAR 30.605(b)(4) abide by the
              decision of the United States Court of Appeals for the Federal Circuit and, where
              Pratt argues that some portion of the revenue share payments represent payments for
              items other than parts, require that Pratt provide evidence that the revenue share
              payments included payments beyond that for the collaboration parts.
           5. Follow the procedures in paragraphs (c) through (h) of FAR 30.605 to correct the
              noncompliant cost accounting practice.
           6. When evaluating a general dollar magnitude proposal (FAR 30.605(d)) or a detailed
              cost impact proposal (FAR 30.605(f)), abide by the decision of the Court and where
              Pratt argues that some portion of the revenue share payments represent payments for
              items other than parts, require that Pratt provide evidence that the revenue share
              payments included payments beyond that for the collaboration parts.
           7. Obtain a legal counsel opinion regarding the applicability, if any, of the requirement
              in the Contracts Disputes Act that the government submit a claim to the contractor
              within 6 years after the accrual of the claim and how this may impact the U.S.
              Government’s ability to recover any increased costs paid since 2005.
           8. Provide semiannual updates to the Assistant Inspector General, Audit Policy &
              Oversight until all recommendations have been implemented.

            We issue a Notice of Concern to alert DoD management of significant findings that we
    believe require immediate attention. The finding that generated this Notice of Concern and any
    corrective action taken by management will be included in an upcoming report. By issuing a
    Notice of Concern, DoD management can take proactive steps to mitigate the reported issue.

            We acknowledge that the DCMA Director has notified us that they are moving forward
    on the recommendations detailed above. However, we respectfully request that the DCMA
    Director respond in writing to the recommendations as contained in this Notice of Concern by
    May 30, 2013. We appreciate the courtesies extended to the staff. Please direct questions to Ms.

                                                     4




                                                                                                          DODIG-2014-077 │ 35
Appendixes



                 Notice of Concern (cont’d)




36 │ DODIG-2014-077
                                                                                                               Appendixes



Notice of Concern (cont’d)



                                     Summary of Significant Events
                                   Notice of Concern
       DCMA Inappropriate Management of a Cost Accounting Standards Noncompliance
                  at United Technologies Corporation, Pratt & Whitney
                      (DoDIG Project No. D2010-DIP0AI-0023.000)

    In 1991 DCAA issued Audit Report No. 2641-91L44200001 and 2641-91D44200804 finding
    that Pratt had not complied with the following cost accounting standards when accounting for the
    cost of material obtained through the use of collaboration agreements:

           •   Cost Accounting Standard 410 Allocation of Business Unit General and
               Administrative Expenses to Final Cost Objectives,

           •   Cost Accounting Standard 418 Allocation of Direct and Indirect Costs, and

           •   Cost Accounting Standard 420 Accounting for Independent Research and
               Development Costs and Bid and Proposal Costs (IR&D and B&P)

    The noncompliances were found in a DCAA audit of a Pratt incurred cost submission for Pratt
    fiscal year 1984. DCAA found that Pratt had not included any costs associated with its
    collaboration agreements with foreign parts suppliers in the allocation bases it used to allocate
    indirect costs, general and administrative expenses and the cost of independent research and
    development and bid and proposal costs to its U.S. Government contracts. The collaboration
    agreements provided that, in exchange for the parts they supply, Pratt would pay the suppliers a
    percentage of revenue received by Pratt from the sale of the respective jet engine (referred to as
    “revenue share"). The revenue share reflected the percentage of parts supplied to the program.
    Pratt had argued that title for the parts never passed from the supplier to Pratt under the
    collaboration agreements and therefore Pratt did not have any costs to include in the same
    allocation bases.

    On December 2, 1996, DCMA determined that Pratt had not complied with the cited cost
    accounting standards and issued a demand for payment to Pratt in the amount of $260 million.
    The demand was to recover the estimated increased costs paid by the U.S. Government to Pratt
    for the period 1984 through 1995. Pratt appealed the DCMA decision to the Armed Services
    Board of Contract Appeals (ASBCA) who decided in favor of Pratt on July 30, 2001. The U.S.
    Government appealed the decision to the United States Court of Appeals for the Federal Circuit
    and on January 15, 2003 the United States Court of Appeals for the Federal Circuit vacated the
    ASBCA decision. The United States Court of Appeals for the Federal Circuit ruled that the
    terms cost and material cost as used in the Cost Accounting Standards include the revenue share
    payments made by Pratt for the parts under the collaboration agreements. As such Pratt was
    required to include a cost for collaboration parts in its allocation bases. The United States Court
    of Appeals for the Federal Circuit remanded the case to the ASBCA to include a determination
    of damages. Of particular significance, the United States Court of Appeals for the Federal
    Circuit provided in Footnote 19 of the decision that:



                                                     6




                                                                                                          DODIG-2014-077 │ 37
Appendixes



                 Notice of Concern (cont’d)


                             To the extent that Pratt may argue that some portion of the revenue shares
                             represented payments for items other than parts, Pratt may provide that evidence
                             on remand. The burden is upon Pratt, however, to show that the revenue share
                             payments included payments beyond that for the collaboration parts.

                      After the United States Court of Appeals for the Federal Circuit decision, DCMA initiated a
                      dual-track approach with Pratt that included preparing for renewed litigation in front of the
                      ASBCA while attempting to reach an out-of-court settlement. On November 24, 2003 DCMA
                      issued an updated demand to Pratt in the amount of $755 million to recover the estimated
                      increased costs paid by the U.S. Government to Pratt for the period 1984 through 2002. The
                      amount of the demand was computed by DCAA as a non-audit service. In early 2005, DCMA
                      (with non-audit assistance from DCAA) exchanged data with Pratt regarding costs associated
                      with the parts acquired through the use of collaboration agreements. DCMA never requested
                      that DCAA perform an audit of this data and it was never audited. In March 2006 DCMA made
                      a management decision to allow the DCMA contract management office at Pratt to negotiate an
                      out-of-court settlement. DCMA cited factors such as conclusion of audit and legal effort on a
                      case that has already spanned 20 years, settlement expectations from management,
                      administrative costs of the ongoing CAS noncompliances, future litigative costs and the litigative
                      risk of returning to the ASBCA where they had previously lost the case.

                      On June 5, 2006 the DCMA contract management office settled the damages associated with
                      Pratt’s failure to comply with Cost Accounting Standards 410, 418 and 420 for the period 1984
                      through 2004 for $283 million. However, the DCMA prenegotiation memorandum (PNM)
                      approving the settlement position did not demonstrate that DCMA made Pratt bear its burden and
                      provide evidence to the U.S. Government that any portion of the revenue share payments
                      represented payments for items other than parts. In fact, DCMA accepted approximately $5
                      billion as revenue share payments for items other than parts without making Pratt bear its burden
                      and provide evidence that some portion of the revenue shares represented payments for items
                      other than parts. The $5 billion was an amount equal to over 40 percent of the approximately
                      $12 billion (unaudited) in revenue share payments at issue. The record shows that to this date
                      DCMA has yet to require that Pratt bear its burden and demonstrate with evidence that some
                      portion of the revenue share payments represent payments for items other than parts.




                                                                      7




38 │ DODIG-2014-077
                                              Appendixes




Appendix E
DCMA Comments on the Notice of Concern




                                         DODIG-2014-077 │ 39
Appendixes



                 DCMA Comments on the Notice of Concern (cont’d)




40 │ DODIG-2014-077
                                                       Appendixes



DCMA Comments on the Notice of Concern (cont’d)




                                                  DODIG-2014-077 │ 41
Appendixes



                 DCMA Comments on the Notice of Concern (cont’d)




42 │ DODIG-2014-077
                                          Management Comments




Management Comments
Defense Contract Management Agency Comments




                                                DODIG-2014-077 │ 43
Management Comments
                                                     Management Comments


               Defense
                DefenseContract  ManagementAgency
                        Contract Management Agency (cont’d) (cont’d)
                                                  Comments




44 │ DODIG-2014-077

                                                       D2010-DIP0AI-0023.000│51
                                                 Management Comments
                                      Management Comments


Defense
 DefenseContract ManagementAgency
        Contract Management Agency  (cont’d) (cont’d)
                                  Comments




                                                         DODIG-2014-077 │ 45
                                        D2010-DIP0AI-0023.000│52
Management Comments
                                                     Management Comments


               DefenseContract
              Defense  Contract Management
                                Management Agency
                                            AgencyComments
                                                   (cont’d) (cont’d)




46 │ DODIG-2014-077
                                              Management Comments
                                     Management Comments


 DefenseContract
Defense  Contract Audit
                  Audit Agency
                        AgencyComments




                                                    DODIG-2014-077 │ 47
Management Comments
                                                   Management Comments


              DefenseContract
             Defense  ContractAudit
                              Audit Agency
                                    Agency Comments
                                           (cont’d) (cont’d)




48 │ DODIG-2014-077

                                                     D2010-DIP0AI-0023.000│55
                                                   Management Comments
                                       Management Comments


 DefenseContract
Defense  Contract Audit
                  Audit Agency
                        AgencyComments
                               (cont’d) (cont’d)




                                                            DODIG-2014-077 │ 49

                                         D2010-DIP0AI-0023.000│56
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      ASBCA Armed Services Board of Contract Appeals
                        CAS Cost Accounting Standards
                       CAFC U.S. Court of Appeals for the Federal Circuit
                        CFR Code of Federal Regulations
                       CMO Contract Management Office
                      DACO Divisional Administrative Contracting Officer
                      DCAA Defense Contract Audit Agency
                      DCAM DCAA Contract Audit Manual
                      DCMA Defense Contract Management Agency
                        DoD Department of Defense
                        FAR Federal Acquisition Regulation
                        OIG Office of Inspector General
                        UTC United Technologies Corporation




50 │ DODIG-2014-077
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
